~
    .::;,~SiRV'Clf

lf"''
                ~
'O..........~'" ~~
    ~.
                ~~
                  ~
                   f­
        ~~ SUVICtS o!rJ'''f'

                   ~
                   "'~
                f l?
                                  DEPARTMENT OF HEALTH &
                                                       & HUMAN SERVICES
                                                               SERVICE S
                                                                             .
                                                                                                              Office of Inspector General
                                                                                                              Office of Audit Services



                                                                                                              Region VII
        :.t~<lJa
        ~"""<IJa
                                                                                                                       12~'
                                                                                                              601 East 12 U
                                                                                                                           ' Street
                                                                                                              Room 0429
                                                                                                              Kansas City. Missouri 64106
                               September 10, 2009

                           Report Number: A-07-09-03121
                                          A-07 -09-03121

                           Mr. Ronald J.
                                       J. Levy 

                           Director 

                           Missouri Department of Social Services 

                           P.O. Box 1527 

                           Jefferson City, Missouri 65102-1527 


                           Dear Mr. Levy:

                                           U .S. Department of Health and Human Services (HHS), Office of Inspector
                           Enclosed is the U.S.
                           General (OIG), final report entitled "Review of the Missouri Department of Social Services
                           Claim for Title IV -E Training Costs for Residential Treatment Centers and Foster Care Parent
                           Training for July 1,2002, Through June 30,
                                                                    30,2006."
                                                                        2006." We will forward a copy of this report to the
                           HHS action official noted on the following page for review and any action deemed necessary.

                           The HHS action official will make final determination as to actions taken on all matters reported.
                           We request that you respond to this official within 30 days from the date of this letter. Your
                           response should present any comments or additional information that you may believe may have
                           a bearing on the final determination.
                                                  determination .

                                                                                U.S.C.. § 552,
                               Pursuant to the Freedom of Information Act, 5 U.S.C         552 , OIG reports generally are made
                               available to the public to the extent that information in the report is not subject to exemptions in
                               the Act. Accordingly,
                                        Accordingly , this report will be posted on the Internet at http ://oig.hhs.gov.
                                                                                                         :// oig.hhs.gov.

                               If you have any questions or comments about this report, please do not hesitate to call me at
                               (816) 426-3591
                                      426-3591,, or contact Greg Tambke
                                                                 Tambke,, Audit Manager, at (573) 893-8338, extension 30, or
                               through email at Greg.Tambke@oig.hhs.gov. 
 Please refer to report number A-07-09-03121 in
                               all correspondence. 


                                                                                     Sincerely,




                                                                                     Patrick 1. Cogley
                                                                                     Regional Inspector General
                                                                                      for Audit Services


                               Enclosure
Page 2 – Mr. Ronald J. Levy


Direct Reply to HHS Action Official:

Ms. Nancy Long 

Acting Regional Administrator, Region VII 

Administration for Children and Families 

601 East 12th Street, Room 276 

Kansas City, Missouri 64106-2808 

Department of Health and Human Services


             OFFICE OF 

        INSPECTOR GENERAL 



    REVIEW OF THE MISSOURI


DEPARTMENT OF SOCIAL SERVICES 

 CLAIM FOR TITLE IV-E TRAINING 

     COSTS FOR RESIDENTIAL 

    TREATMENT CENTERS AND


 FOSTER CARE PARENT TRAINING 

   FOR JULY 1, 2002, THROUGH 

         JUNE 30, 2006 





                     Daniel R. Levinson


                      Inspector General 


                      September 2009


                       A-07-09-03121


                    Office of Inspector General
                                        http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE
                       AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, 552, Office of
Inspector General reports generally are
                                      are made available to the public to
the extent that information in the report
                                   report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT
           AUDIT SERVI
                 SERVICCES FINDINGS AND OPINIONS

The designation of financial or management
                                  management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusi
           conclusions and recommendatio
                              recommendationsns in this report represent the
findings and opinions of OAS. Aut Authorized
                                     horized officials of the HHS operating
divis
divisiions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND 


Title IV-E of the Social Security Act, as amended, authorizes Federal funds for States to provide
foster care and adoption assistance to children under an approved State plan. At the Federal
level, the Administration for Children and Families (ACF) administers the program; in Missouri,
the Department of Social Services (the State agency) administers the program. Title IV-E
provides Federal financial participation (FFP) at a 50-percent rate for administrative
expenditures and at an enhanced 75-percent rate for certain training expenditures.

Federal regulations specify that training expenditures must be included in the approved State
training plan to be claimed at the enhanced 75-percent FFP rate. By contrast, expenditures
claimed at the administrative 50-percent FFP rate do not need to be included in the approved
State training plan.

This report, one of a series conveying the results of reviews that we have conducted of the Title
IV-E training program in the State of Missouri, focuses on two aspects of the State agency’s
Title IV-E training costs claimed: costs associated with residential treatment centers (RTC) and
costs associated with foster care parent training.

RTCs provide specialized treatment services designed to improve children’s psychological or
emotional functioning and bring about positive behavioral changes. These services include
evaluation and diagnosis, counseling, educational services, and recreational services.

New foster care parents, as part of the licensing process, must undergo a minimum of 27 hours of
competency-based pre-service training and assessment to help them prepare for the various
aspects and challenges of foster parenting and to help them understand and engage the problems
that foster children may experience. Inservice training for licensed foster care parents is
ongoing, with a minimum of 30 hours required every 2 years.

The State agency claimed $6,579,765 ($4,934,824 Federal share) in Title IV-E training costs for
RTCs and foster care parent training at the enhanced 75-percent FFP rate from July 1, 2002,
through June 30, 2006. Our audit covered $3,941,685 (Federal share) in RTC and foster care
parent training costs claimed by the State agency.

OBJECTIVE

Our objective was to determine whether selected Title IV-E costs that the State agency claimed
for RTCs and foster care parent training at the enhanced 75-percent FFP rate from July 1, 2002,
through June 30, 2006, were allowable under Federal and State regulations and contractual
provisions.




                                                i
SUMMARY OF FINDINGS

Of the $3,941,685 (Federal share) in Title IV-E training costs that the State agency claimed (and
that we reviewed) for RTCs and foster care parent training from July 1, 2002, through
June 30, 2006, $569,663 (Federal share) was unallowable. The State agency overstated Title
IV-E training costs by the $569,663 (Federal share) because it did not follow Federal regulations.
Specifically, the State agency claimed:

   		 $557,195 (Federal share) in RTC costs that were unallowable because the State agency
       claimed Federal reimbursement based on an incorrect calculation of the amounts it paid
       to RTCs rather than on the actual amounts as mandated by Federal requirements.

   		 $12,468 (Federal share) in costs claimed by one RTC that were unallowable because they
       were either (a) not permitted for Federal reimbursement or (b) not supported by adequate
       documentation pursuant to Federal and State regulations.

Because of the high error rate in our review of claims at one RTC and because of the lack of
policies and procedures on the part of the State agency, we are setting aside, for adjudication by
ACF, the remaining claims at that facility: claims that we did not review and that totaled
$149,693 (Federal share) in potentially unallowable costs.

Further, because we did not review costs incurred by 37 other RTCs in Missouri that participated
in these RTC programs, we cannot express an opinion on $993,139 (Federal share) in RTC costs
claimed by the State agency for costs incurred at these other RTCs. However, the prevalence of
unallowable costs claimed at the one RTC that we reviewed, and the lack of policies and
procedures, suggest that similar issues may exist with the costs claimed by the State agency for
these other RTCs.

We accepted the remaining $3,222,329 (Federal share) in Title IV-E training costs claimed for
RTCs and foster care parent training.

A table summarizing these findings is attached as Appendix A.

The State agency claimed these unallowable and potentially unallowable costs because it did not
have adequate policies and procedures to ensure that it claimed only allowable Title IV-E
training costs pursuant to Federal regulations.

RECOMMENDATIONS

We recommend that the State agency:

        adjust its next “Title IV-E Foster Care and Adoption Assistance Financial Report” to
         reduce Federal reimbursement claimed for Title IV-E training by $569,663; and

        perform the following regarding RTC claims:



                                                 ii
           o		 work with ACF to evaluate the remaining claims that we did not review at
               Leatherwoods Home for Children Residential Facility and determine what portion
               (if any) of the $149,693 (Federal share) was unallowable, and then make
               appropriate financial adjustments if necessary;

           o		 work with ACF to evaluate the RTC costs claimed by the State agency for the
               remaining 37 RTCs that we did not review and determine what portion (if any) of
               the $993,139 (Federal share) was unallowable, and then make appropriate
               financial adjustments if necessary; and

           o		 strengthen policies and procedures to ensure that it claims Federal reimbursement
               for Title IV-E training pursuant to Federal regulations and contractual provisions.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with our findings and
recommendations. Although the State agency agreed that it had incorrectly calculated the Title
IV-E training portion, the State agency disagreed with our calculation of this overpayment.
Specifically, the State agency stated that we should not have applied the penetration rate, which
would have resulted in an unallowable overpayment of $42,847 rather than the $557,195 stated
in our draft report. In addition, the State agency generally disagreed with our disallowance of the
costs reviewed at the RTC. Finally, the State agency indicated that it has no objection to
working with ACF regarding a review of its policies and procedures; however, it disagrees that
ACF should reevaluate its claim for RTC costs.

The State agency’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. We do not agree with the State agency’s revised methodology
whereby—contrary to Office of Management and Budget Circular A-87 and ACF’s Information
Memorandum—it no longer used the penetration rate to properly allocate training costs even
though the costs benefited both Title IV-E and non-Title IV-E. In addition, although the State
agency generally disagreed with our disallowance of costs reviewed at one RTC, the State
agency did not provide any information—as to either different criteria than the regulations we
cited, or new and adequate documentation—that would cause us to revise our findings or
recommendations.

Finally, with respect to the State agency’s disagreement that ACF should reevaluate the State
agency’s claim for RTC costs, we maintain that this procedural recommendation remains valid.
In light of the fact that the State agency was not able to demonstrate that it had policies and
procedures in place to prevent unallowable claims from being claimed as Title IV-E training
costs, and in light of the high error rate in our review of claims at one RTC, we maintain that
both of our findings and our recommendations to include our procedural recommendations, are
valid.



                                                iii
                                                  TABLE OF CONTENTS 


                                                                                                                                     Page

INTRODUCTION.......................................................................................................................1 


          BACKGROUND ..............................................................................................................1 

              Title IV-E Program ...............................................................................................1 

              Federal Reimbursement Requirements .................................................................1 

              Residential Treatment Centers..............................................................................2 

              Foster Care Parent Training ..................................................................................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................3 

               Objective ...............................................................................................................3 

               Scope.....................................................................................................................3 

               Methodology .........................................................................................................3 


FINDINGS AND RECOMMENDATIONS .............................................................................4 


          FEDERAL REQUIREMENTS.........................................................................................5 


          STATE REQUIREMENTS AND CONTRACTUAL PROVISIONS .............................6 


          UNALLOWABLE AND POTENTIALLY UNALLOWABLE COSTS CLAIMED
            FOR RESIDENTIAL TREATMENT CENTERS......................................................6 

              Costs Not Paid by the State Agency .....................................................................6 

              Unallowable and Potentially Unallowable Costs at 

                 One Residential Treatment Center...................................................................7 


          RECOMMENDATIONS..................................................................................................9 


          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
            RESPONSE.............................……………………………………………………....9 

               Costs Not Paid by the State Agency .....................................................................9 

               Unallowable and Potentially Unallowable Costs at 

                  One Residential Treatment Center................................................................11 

               Procedural Recommendations ............................................................................11                       


APPENDIXES

          A – SUMMARY OF AUDIT RESULTS 

          B – STATE AGENCY COMMENTS






                                                                    iv
                                       INTRODUCTION 


BACKGROUND

Title IV-E Program

Title IV-E of the Social Security Act (the Act), as amended, authorizes Federal funds for States
to provide foster care and adoption assistance to children under an approved State plan. At the
Federal level, the Administration for Children and Families (ACF) administers the program; in
Missouri, the Department of Social Services (the State agency) administers the program.

Federal funds are available to States for the following Title IV-E administrative and training
costs:

   		   Administrative costs include staff activities such as case management and supervision
         of children placed in foster care or considered to be Title IV-E candidates, preparation
         for and participation in court hearings, placements of children, recruitment of foster
         parents, and licensing of foster homes and institutions. The Federal financial
         participation (FFP) rate for administrative costs allocable to the Title IV-E program is
         50 percent.

   		   Training costs include the training of personnel employed or preparing for employment
         by the State or local agency administering the State training plan and the training of
         current or prospective foster care or adoptive parents, as well as personnel of childcare
         institutions. Certain State training costs qualify for an enhanced 75-percent FFP rate.

Pursuant to Federal regulations (45 CFR part 95, subpart E), States must allocate costs to the
Title IV-E program in accordance with a public assistance cost allocation plan approved by the
Department of Health and Human Services, Division of Cost Allocation (DCA), after ACF
reviews and comments on the fairness of the cost allocation methodologies. Federal regulations
(45 CFR §§ 74.27 and 92.22) also require that costs be allocated according to the accounting
principles and standards in Office of Management and Budget (OMB) Circular A-87, “Cost
Principles for State, Local, and Indian Tribal Governments.” The circular requires at section C
that costs be allocated to programs based on the relative benefits received and be adequately
documented. ACF’s “Child Welfare Policy Manual” states that training costs must be allocated
to benefiting programs and describes allowable administrative costs.

States submit the “Title IV-E Foster Care and Adoption Assistance Financial Report”
(ACF-IV-E-1 report) on a quarterly basis to claim Federal reimbursement for Title IV-E costs.

Federal Reimbursement Requirements

Section 474(a)(3) of the Act authorizes Federal reimbursement to a State at an enhanced
75-percent rate for amounts expended “for the proper and efficient administration of the State
plan” if the expenditures are for certain types of training, such as the training of personnel




                                                 1


employed or preparing for employment by the State or local agency administering the Title IV-E
program.

Federal regulations (45 CFR § 1356.60(b)) restate the training costs for which States receive the
enhanced 75-percent FFP rate and further provide that inservice training and short-term and
long-term training at educational institutions be provided pursuant to 45 CFR
§§ 235.63−235.66(a). These regulations list with greater specificity certain activities and costs
that are eligible for the enhanced FFP rate. Section 474(a)(3)(E) of the Act and 45 CFR
§ 1356.60(c) authorize reimbursement to States at a 50-percent FFP rate for all other allowable
administrative expenditures.

All training activities and costs charged to the Title IV-E program must be included in the State’s
training plan pursuant to 45 CFR § 1356.60(b)(2).1 The State’s training plan must describe the
training activities and costs that will be charged to the Title IV-E program at the enhanced 75-
percent FFP rate. By contrast, expenditures claimed at the administrative 50-percent FFP rate do
not need to be included in the approved State training plan.

This report, one of a series conveying the results of reviews that we have conducted of the Title
IV-E training program in the State of Missouri, focuses on two aspects of the State agency’s
Title IV-E training costs claimed: costs associated with residential treatment centers (RTC) and
costs associated with foster care parent training.

Residential Treatment Centers

RTCs provide specialized treatment services designed to improve children’s psychological or
emotional functioning and bring about positive behavioral changes. These services include
evaluation and diagnosis, counseling, educational services, and recreational services. Only
children with the most severe problems requiring structured and institutional settings are placed
in residential care, and then only temporarily. RTCs aim to provide a greater level of supervision
than a foster home can provide.

Foster Care Parent Training

New foster care parents, as part of the licensing process, must undergo a minimum of 27 hours of
competency-based pre-service training and assessment to help them prepare them for the various
aspects and challenges of foster parenting and to help them understand and engage the problems
that foster children may experience. Inservice training for foster care parents is ongoing with a
minimum of 30 hours required every 2 years. The foster care parent training is provided at the
county level by State agency personnel or by professionals who are contracted for this purpose.

The Foster Specialized Training Assessment Resources and Support/Skills is a comprehensive
recruitment/training/assessment program. Individuals interested in becoming licensed foster
parents for non-related children for the agency are required to participate in the 27 hours of pre-
service training. The curriculum consists of nine weeks of training in three-hour blocks of time.

1
 The State agency submitted a training plan to ACF for approval for each Federal fiscal year included in this review
(2002 through 2006).


                                                         2


OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether selected Title IV-E costs that the State agency claimed
for RTCs and foster care parent training at the enhanced 75-percent FFP rate from July 1, 2002,
through June 30, 2006, were allowable under Federal and State regulations and contractual
provisions.

Scope

From July 1, 2002, through June 30, 2006, the State agency claimed a total of $30,556,399
($22,917,299 Federal share) in Title IV-E training costs. Of this amount, the State agency
claimed $6,579,765 ($4,934,824 Federal share) in Title IV-E training costs at the enhanced
75-percent FFP rate for RTCs and foster care parent training for this period.

Although we conducted a limited review of Title IV-E training costs at one RTC, we did not
review the remaining 37 RTCs that participated in these programs. As a result, we cannot
express an opinion on $993,129 (Federal share) in RTC costs claimed for costs incurred by these
other RTCs.

Therefore, our audit covered $3,941,685 (Federal share) in RTC and Foster Care Parent training
costs claimed by the State agency.

We are separately reviewing the remaining Title IV-E training costs (cost pool, long-term
training, and salaries and benefits) that the State agency claimed for Title IV-E training during
the same time period. We are addressing those costs in three separate reports.

We reviewed internal controls to the extent necessary to accomplish the audit objective.

We performed fieldwork at the State agency in Jefferson City, Missouri, from November 2006 to
May 2008. We also performed fieldwork at Leatherwoods Home for Children Residential
Facility (Leatherwoods), an RTC, in Kansas City, Missouri, from July to August 2007.

Methodology

To accomplish our objective, we:

   		 reviewed applicable Federal laws, regulations, policy directives, State training plans, U.S.
       Department of Health and Human Services Departmental Appeals Board decisions, and
       the approved cost allocation plan;

   		 interviewed officials of ACF, the State agency, and Leatherwoods to gain an
       understanding of the State agency’s Title IV-E training program and its policies and
       procedures;




                                                 3


    		 reviewed the State agency’s methods for recording and allocating training costs;

    		 reviewed the ACF-IV-E-1 reports and supporting quarterly cost allocation reports and
        compared the amounts claimed with the State agency’s accounting records;

    		 visited one RTC that claimed payments (Leatherwoods), and reviewed its Title IV-E
        training costs claimed to the State agency;

    		 judgmentally selected line items within invoices to review at Leatherwoods2; and

    		 verified judgmentally selected amounts claimed for foster or adoptive parent training, and
        reviewed the invoices that supported these selected amounts.3

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

Of the $3,941,685 (Federal share) in Title IV-E training costs that the State agency claimed (and
that we reviewed) for RTCs and foster care parent training from July 1, 2002, through
June 30, 2006, $569,663 (Federal share) was unallowable. The State agency overstated Title
IV-E training costs by $569,663 (Federal share) because it did not follow Federal regulations.
Specifically, the State agency claimed:

    		 $557,195 (Federal share) in RTC costs that were unallowable because the State agency
        claimed Federal reimbursement based on an incorrect calculation of the amounts it paid
        to RTCs rather than on the actual amounts as mandated by Federal requirements.

    		 $12,468 (Federal share) in costs claimed by Leatherwoods that were unallowable because
        they were either (a) not permitted for Federal reimbursement or (b) not supported by
        adequate documentation pursuant to Federal and State regulations.

Because of the high error rate in our review of claims at Leatherwoods and because of the lack of
policies and procedures on the part of the State agency, we are setting aside, for adjudication by
ACF, the remaining claims at that facility: claims that we did not review and that totaled
$149,693 (Federal share) in potentially unallowable costs.



2
 The invoices represented at least one quarter of claimed costs within each State fiscal year within our review
period.
3
 We reviewed claims submitted by providers who trained foster care parents during the fourth quarter of State fiscal
year 2005. We judgmentally selected the five highest paid providers during that quarter.


                                                          4


Further, because we did not review costs incurred by 37 other RTCs in Missouri that participated
in these RTC programs, we cannot express an opinion on $993,139 (Federal share) in RTC costs
claimed by the State agency for costs incurred at these other RTCs. However, the prevalence of
unallowable claimed costs that we reviewed at Leatherwoods, and the lack of policies and
procedures, suggest that similar issues may exist with the costs claimed by the State agency for
these other RTCs.

We accepted the remaining $3,222,329 (Federal share) in Title IV-E training costs claimed for
RTCs and foster care parent training.

A table summarizing these findings is attached as Appendix A.

The State agency claimed these unallowable and potentially unallowable costs because it did not
have adequate policies and procedures to ensure that it claimed only allowable Title IV-E
training costs pursuant to Federal regulations.

FEDERAL REQUIREMENTS

Section 474(a)(3)(E) of the Act and 45 CFR § 1356.60(c)(ix) provide for a 50-percent FFP rate
for reimbursement of administrative expenses. Furthermore, 45 CFR § 1356.60(c)(3) states:
“Allowable administrative costs do not include the costs of social services provided to the child,
the child’s family or foster family which provide counseling or treatment to ameliorate or
remedy personal problems, behaviors or home conditions.”

Section 474(a)(3) of the Act states:

       [E]ach State which has a plan approved under this part shall be entitled to a
       payment equal to the sum of . . . the following proportions of the total amounts
       expended during such quarter as found necessary by the Secretary for the
       provision of child placement services and for the proper and efficient
       administration of the State plan. . . . [Emphasis added.]

Federal regulations (45 CFR § 95.13) state:

       (a) We consider a State agency’s expenditure for assistance payments under title
           I, IV-A, IV-E, X, XIV, or XVI (AABD) to have been made in the quarter in
           which a payment was made to the assistance recipient, his or her protective
           payee, or a vendor payee, even if the payment was for a month in a previous
           quarter.

       (b) We consider a State agency’s expenditure for services under title I, IV-A, IV-
           B, IV-D, IV-E, X, XIV, XVI (AABD), XIX, or XXI to have been made in the
           quarter in which any State agency made a payment to the service provider. . . .

       (d) We consider a State agency’s expenditure for administration or training under
           titles I, IV-A, IV-B, IV-D, IV-E, X, XIV, XVI (AABD), XIX, or XXI to have



                                                 5


           been made in the quarter payment was made by a State agency to a private
           agency or individual; or in the quarter to which the costs were allocated in
           accordance with the regulations for each program.

Federal regulations (45 CFR § 235.64(c)(3)) also state:

       (c) For training and education outside of the agency, FFP is available for: . . . .

            (3)		   Travel, per diem, tuition, books and educational supplies for
                    employees in short-term training programs of less than four
                    consecutive work weeks, or part-time training programs. . . .

ACF’s instructions for completing form ACF-IV-E-1 require the State agency to follow the
provisions of 45 CFR § 95.13 as follows: “Columns (a) & (b): CURRENT QUARTER
EXPENDITURES. Include on Part 1 all amounts paid by the State or local government during
the quarter indicated, even if the payment is applicable to a previous quarter, per the Federal
regulations at 45 CFR 95.4 and 95.13(a), (b) and (d).”

OMB Circular A-87, Attachment A, Section C states: “To be allowable under Federal awards,
costs must meet the following general criteria: . . . . (j) Be adequately documented.”

STATE REQUIREMENTS AND CONTRACTUAL PROVISIONS

State regulations (1 Code of State Regulations (CSR) 10-11.010(3)) state:

       Officials and employees will be allowed travel expenses when required to travel
       away from their official domicile on state business. To qualify for reimbursement
       for meal(s), officials and employees must be in continuous travel status for twelve
       (12) hours or more. Officials and employees shall indicate on their expense report
       the twelve (12)-hour status, if no overnight lodging is listed.

Contractual provisions between the State agency and Leatherwoods require Leatherwoods to
follow the provisions of the State of Missouri Travel regulations for travel and per diem.

UNALLOWABLE AND POTENTIALLY UNALLOWABLE COSTS CLAIMED FOR
RESIDENTIAL TREATMENT CENTERS

Costs Not Paid by the State Agency

The State agency claimed $557,195 in RTC costs that were unallowable because the State
agency claimed Federal reimbursement based on an incorrect calculation of the amounts it paid
to RTCs, rather than on the actual amounts as mandated by Federal requirements.

The State agency claimed RTC costs totaling $2,285,929 ($1,714,447 Federal share) that were
unallowable because the State agency’s procedures for claiming Federal reimbursement did not
follow the provisions of Federal requirements. Specifically, rather than claiming, for Federal



                                                 6


reimbursement, the “total amounts expended” pursuant to Section 474(a)(3) of the Act, the State
agency claimed costs for RTCs by taking the amounts it had paid to RTCs and incorrectly
increasing those amounts by performing two calculations:

    		   First, the State agency divided the amounts it had paid to RTCs by 75 percent to account
          for the Federal share that the State agency withheld from RTCs.

    		   The State agency then took that new and higher figure and divided it again, by 90
          percent, to account for an administrative fee that the State agency also withheld from
          RTCs.

The State agency then applied the appropriate penetration rates to these amounts to claim
expenditures.4

For example, if the State agency paid the RTCs a total of $100 for a particular quarter, the State
agency would divide the $100 by 75 percent and then divide that result by 90 percent to reach a
total of $148. The amount would exceed the amount the State agency had paid to the RTCs by
48 percent. The State agency would then apply the penetration rate to the $148 (i.e. rather than
to the $100 amount actually paid to the RTCs) to derive the amount that it would claim for
Federal reimbursement under Title IV-E.

The State agency claimed $2,285,929 ($1,714,447 Federal share) in costs related to Title IV-E
training based on inflated amounts. However, if the State agency had claimed Federal
reimbursement based on the amounts that it actually paid to the RTCs,5 the State agency would
have received $1,543,002 ($1,157,252 Federal share). Therefore, we are questioning the
difference of $557,195 (Federal share).

Unallowable and Potentially Unallowable Costs at One Residential Treatment Center

Of the $19,226 ($14,420 Federal share) in claims reviewed at Leatherwoods, $16,623 ($12,468
Federal share) was unallowable because they either (a) were not permitted for Federal
reimbursement or (b) were not supported by adequate documentation pursuant to Federal and
State regulations. The remaining $2,603 ($1,952 Federal share) was allowable.6




4
 The Title IV-E penetration rate represented the percentage of foster care children that were Title IV-E compared to
all children within the foster care system.
5
 As in the example, we took the amount paid to the RTCs and applied the penetration rate for the quarter. Thus, we
agreed with the State agency’s procedures for applying the penetration rate.
6
 Of the $2,603 ($1,952 Federal share) that we considered allowable, $2,085 ($1,564 Federal share) had inadequate
documentation that was older than 3 years old. Because of the ages of these claims, Leatherwoods was, per
contractual provisions, no longer required to keep the supporting documentation for those claims and consequently
we did not question the $1,564 (Federal share) associated with these older claims. We had no issues with the
remaining $518 ($388 Federal share) of claimed costs that we reviewed at Leatherwoods.


                                                         7


Of the $12,468 (Federal share) in unallowable claims at Leatherwoods, $8,301 involved costs
that were not permitted for Federal reimbursement and $4,167 involved costs that were not
adequately documented. The remaining $1,952 was allowable.

The $8,301 (Federal share) in unallowable claimed costs for Leatherwoods included the
following:

    		 costs for unallowable courses such as “Conflict resolution, how to calm a child down”
        that did not qualify for Federal reimbursement under the provisions of 45 CFR
        § 1356.60(c)(3);

    		 salaries and fringe benefits for employees taking short-term training, costs that were not
        permitted for Federal reimbursement under the provisions of 45 CFR § 235.64(c)(3);

    		 entertainment expenses such as IMAX movie tickets and a riverboat dinner cruise that
        was not permitted for Federal reimbursement under the provisions of per 45 CFR
        § 235.64(c)(3); and

    		 per diem for local travel that was not permitted under the provisions of the State of
        Missouri travel regulations (1 CSR 10-11.010) and the contract between the State agency
        and Leatherwoods.

In addition, Leatherwoods had $4,167 in claimed costs that were unallowable because those
costs did not have adequate documentation. Specifically, Leatherwoods did not have invoices
and a certificate of completion as required by OMB Circular A-87.

Based on our findings at Leatherwoods, we asked the State agency to identify its policies and
procedures that would prevent claims from being incorrectly claimed as Title IV-E training costs.
However, the State agency was not able to demonstrate that it had policies and procedures in
place to prevent unallowable claims from being claimed as Title IV-E training costs.

Based on the $19,2267 ($14,420 Federal share) in claims reviewed at Leatherwoods, we
concluded that $16,623 ($12,468 Federal share) was unallowable because the claimed costs did
not comply with Federal and State regulations or because Leatherwood had inadequate
documentation to support the amounts claimed.

We accepted $2,603 ($1,952 Federal share) in costs that Leatherwoods claimed and that we
reviewed.




7
 Because we had already questioned the difference between the invoiced amount and the amounts paid in our review
of “Costs Not Paid by the State Agency,” we converted the amounts reviewed and questioned into amounts that
would have been paid by the State agency to Leatherwoods. In this manner, we avoided questioning the same
reimbursements twice. This methodology included applying the penetration rates used by the State agency.


                                                       8


Because of the high error rate in our review of claims at Leatherwoods and because of the lack of
policies and procedures on the part of the State agency, we are setting aside, for adjudication by
ACF, the remaining claims at that facility: claims that we did not review and that totaled
$199,591 ($149,693 Federal share) in potentially unallowable costs.

Because the State agency did not have policies and procedures in place to prevent unallowable
costs from being claimed, and because we did not perform detailed reviews of the remaining 37
RTCs, we cannot express an opinion on $1,324,185 ($993,139 Federal share) in costs claimed
for those RTCs. However, the prevalence of unallowable claimed costs that we reviewed at
Leatherwoods, and the lack of policies and procedures, suggest that similar issues may exist with
the costs claimed by the State agency for these other RTCs.

RECOMMENDATIONS

We recommend that the State agency:

   		   adjust its next ACF-IV-E-1 report to reduce Federal reimbursement claimed for Title
         IV-E training by $569,663; and

   		   perform the following regarding RTC claims:

           o		 work with ACF to evaluate the remaining claims that we did not review at
               Leatherwoods and determine what portion (if any) of the $149,693 (Federal share)
               was unallowable, and then make appropriate financial adjustments if necessary;

           o		 work with ACF to evaluate the RTC costs claimed by the State agency for the
               remaining 37 RTCs that we did not review and determine what portion (if any) of
               the $993,139 (Federal share) was unallowable, and then make appropriate
               financial adjustments if necessary; and

           o		 strengthen policies and procedures to ensure that it claims Federal reimbursement
               for Title IV-E training pursuant to Federal regulations and contractual provisions.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency disagreed with our findings and
recommendations. A summary of the State agency’s pertinent comments and our response
follows. The State agency’s comments are included in their entirety as Appendix B.

Costs Not Paid by the State Agency

State Agency Comments

The State agency agreed with our calculations that it had claimed $2,285,925 for RTC costs and
that it had received $1,714,447 in Federal reimbursement for these costs. However, the State


                                                9


agency disagreed with our calculations of the allowable Federal reimbursement. The State
agency said: “In accordance with the contract” with the RTCs, the State agency “. . . determined
the anticipated Title IV-E federal reimbursement by applying a ‘penetration rate’ of 70%, the
FMAP rate (federal match rate) of 75%, and the 10% administrative fee.” The State agency
added that “[t]he actual penetration rate had already been applied in determination of the Title
IV-E claim. The state is entitled to 75% of the $2,228,800 payment made in accordance with its
contract ($1,671,600).” Thus, according to the State agency, the amount of the unallowable
overpayment was $42,847, not $557,195 as stated in our report.

Office of Inspector General Response

We calculated the State agency’s claimed RTC costs by using the same methodology that the
State agency had employed during the time period covered by our review, except that we did not
inflate the amount paid by the RTCs.8 Specifically, we took the $2,228,800 paid to the RTCs
and applied the penetration rate just as the State agency had done when performing the
calculation that produced its initial claim for RTC costs. As a result, we obtained a corrected
amount that the State agency could claim of $1,543,002 ($1,157,252 Federal share) and
concluded that the State agency overclaimed $742,927 ($557,195 Federal share)—which is the
amount reflected in our finding.

After reviewing our draft report, the State agency said, in its written comments, that it no longer
wishes to apply the penetration rate to allocate the costs paid to the programs that benefited.
Specifically, the State agency said that it should receive the Federal share of the $2,228,800 paid
to the RTCs, which was $1,671,600. As a result, according to the State agency, it did not
overclaim the $557,195 mentioned in our finding, but rather $42,847.

The State agency indicated that its revised methodology was “[i]n accordance with the contract”
with RTCs. However, the relevant language in the contract between Leatherwoods and the State
agency did not require the State agency to withhold funds because of the penetration rate:

         CD [Children’s Division at the State agency] agrees, subject to the availability of
         funds and less any disallowed costs, to reimburse the PROVIDER
         [Leatherwoods] for the cost of training described herein, in an amount equal to the
         anticipated Title IV-E federal financial participation in such costs and less an
         administrative fee, which are invoiced by the PROVIDER [Leatherwoods]. The
         PROVIDER [Leatherwoods] agrees that the amount of all reimbursement due for
         the costs of training shall be reduced by an administrative fee equal to ten percent
         (10%) of the anticipated Title IV-E federal financial participation in said costs of
         training.

In fact, the contract between Leatherwoods and the State agency is silent on the subject of the
penetration rate. Above and beyond that fact, though, remains the fact that the provisions of the

8
 As shown by the State agency in its appendix to its written comments on our draft report, the State agency took the
$2,228,800 paid to the RTCs and grossed this amount up by dividing it by 75 percent and again by 90 percent to
obtain $3,301,926. The State agency then applied the penetration rate to obtain the $2,285,929 ($1,714,447 Federal
share) that it then claimed as Title IV-E training costs.


                                                         10


contract do not supersede the provisions of applicable Federal requirements, which do not permit
the State agency to calculate its claimed RTC costs using this revised methodology. OMB
Circular A-87, Appendix A, section C.3.a., states: “A cost is allocable to a particular cost
objective if the goods or services involved are chargeable or assignable to such cost objective in
accordance with relative benefits received.” Consistent with the provisions of the circular,
ACF’s Information Memorandum ACF-IM-91-15, issued July 24, 1991, states: “Training costs
for all training, including long-term educational training (degree programs), must be allocated
among all benefiting programs and may not be direct-charged to title IV-E, unless title IV-E is
the only benefiting program.”

Based on the review of the expenditures made by RTCs, we concluded that the only expenditures
qualifying for Federal reimbursement were those that the State agency paid pursuant to Federal
law (Section 474(a)(3) of the Act). From what the State agency determined were allowable and
payable from the amounts billed, we concluded that these expenditures benefited both Title IV-E
and non-Title IV-E alike pursuant to Federal regulations (OMB Circular A-87, Appendix A,
section C.3.a and ACF-IM-91-15). As a result, we applied the penetration rate just as the State
agency had done in the calculations that produced its initial claim for RTC costs, and calculated
the amount ($1,543,002 ($1,157,252 Federal share)) to which the State agency was entitled.

Unallowable and Potentially Unallowable Costs at One Residential Treatment Center

State Agency Comments

The State agency disagreed “. . . that the Training activities allowed at 75% reimbursement under
Section 474(a)(3) of the Act exclude the costs identified in the audit, with one exception. We do
agree that the entertainment expenses appear to have been properly disallowed but we are unable
to confirm the effect of the disallowance in the training claim.”

Office of Inspector General Response

Although the State agency disagreed with our recommended disallowances of various costs
totaling $16,623 ($12,468 Federal share) that were claimed at Leatherwoods, the State agency
did not provide any information—as to either different criteria than the regulations we cited, or
new and adequate documentation—that would cause us to revise our findings or
recommendations. Therefore, we maintain that these claimed costs were unallowable because
they either (a) were not permitted for Federal reimbursement or (b) were not supported by
adequate documentation pursuant to Federal and State regulations.

Procedural Recommendations

State Agency Comments

The State agency said that it “. . . is always willing to work with ACF to ensure compliance in all
respects with the program.” However, the State agency “. . . respectfully disagrees that ACF
should reevaluate the RTC costs to the extent that they fall beyond the scope of this audit.”




                                                11


More generally, the State agency added that it “. . . disagrees with any suggestion that its policies
and procedures are inconsistent with federal requirements.”

Office of Inspector General Response

In light of the fact that the State agency was not able to demonstrate that it had policies and
procedures in place to prevent unallowable claims from being claimed as Title IV-E training
costs, and in light of the high error rate in our review of claims at Leatherwoods, we maintain
that both of our findings and our recommendations to include our procedural recommendations,
are valid.




                                                 12


APPENDIXES 

                                                                                   APPENDIX A 



                                 SUMMARY OF AUDIT RESULTS 


                              Title IV-E Training Costs Claimed for 

                               Residential Treatment Centers and 

                                   Foster Care Parent Training 

                            During July 1, 2002, through June 30, 2006 


                                            Federal Share 

                              TOTAL        AMOUNT          AMOUNT
                            CLAIMED        QUESTIONED     SET ASIDE      NO OPINION ALLOWABLE

Residential Treatment Centers $1,714,447    $569,663          $149,693      $993,139       $1,952
Foster Care Parent Training $3,220,377                                                 $3,220,377
GRAND TOTAL                   $4,934,824    $569,663          $149,693      $993,139   $3,222,329
                                                                                                                           APPENDIX B


1ro'cixrlSER~ICES
 

1f~'C{XrlSER~ICES
                                                                                                                           Page 1 of 5



                   }lmr Potential. Our Support.
                   YOur
                                                                              W. (JAY) NIXON, GOVERNOR'
                                                                     JEREMIAH W.              GOVERNOR· RONALD J. LEVY,
                                                                                                                  L EVY, DIRECTOR

                                                   P.O. 	BOX 1527' BROADWAY STATE        BUILDING ' JEFFERSON CITY, MO 65102-1527
                                                                            STATE OFFICE BUILDING'
                                                                                               WWW.DSS. MO.GOV· 573-751-4815 • 573-751-3203 FAX
                                                                                               WWW.DSS.MO.GOY·




                                                               July 23, 2009


Patrick J. Cogley
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Inspector General, Offices of Audit Services, Region VII
601 East 12th Street, Room 429
Kansas City, MO 64106

Re: 	          ofthe
        Review of the Missouri Department of Social Services Claimfor Title IV-E Training Costs for
                                          ofSocial
        Residential Treatment Centers and Foster Care Parent Trainingfor July 1, 2002 Through June 30,
        2006, Report No. A-0
        2006,                7-09-03121
                         A-07-09-03121

Dear Mr. Cogley:

The Missouri Department of Social Services ("Missouri" or "the State") hereby responds to the draft
                                                                                               18, 2009.
report of the above-referenced audit ("Draft Report"), which you forwarded to the State on May 18,2009.
The time for reply was extended to July 24,2009.
                                        24, 2009.

The Draft Report evaluates Missouri's
                           Missouri ' s claim for federal financial participation ("FFP") in Residential
Treatment Centers and foster care parent training costs reimbursable under Title IV IV-E
                                                                                      -E of the Social
                                                           1, 2002 through June 30, 2006. For the reasons
Security Act ("Act"). The audit covered the period July 1,2002
explained below, we believe that the determinations set forth in the Draft Report are erroneous.

Background

Training Contract for Residential Child Caring Agencies

During the audit period Missouri contracted with Residential Child Caring Agencies to train personnel
administering the State's Title IV-E plan. The contract specifies on page 4, paragraph 12 the Title IV-E
training activities that will be reimbursed as follows:

"CD agrees, 	subject to the availability of funds and less any disallowed costs, to reimburse the
PROVIDER for the costs of training described herein, in an amount equal to the anticipated Title IV-E
federal financial participation in such costs and less an administrative fee, which are invoiced by the
PROVIDER. The PROVIDER agrees that the amount of all reimbursements due for the costs of training
shall be reduced by an administrative fee equal to ten percent (10%) of the anticipated Title IV-E federal
financial participation in said costs of training."


                                                             RELAY
                                                             R ELAY MISSOURI
                                                                    MISSOUR I
                                                  FOR HEARING     SPEECH IMPAIRED
                                                      HEARING AND SPEECH IMPAIR ED 

                                     1-800-735-2466
                                     1-800-735 -2466 VOICE' 1-800-735-2966 TEXT PHONE

                                                                                PHONE

                              An /;"'110/
                                 /;" 11101 ()ppor!//oiry
                                           Opportlllliry IOmp/oyer,
                                                         /;'lIIp/oyer. services proVided
                                                                                provided on
                                                                                         nn a nondiscriminatory
                                                                                              nondisuilllinalllry hasis.
                                                                                                                  hasis.
I Patrick J. Cogley
I July 23, 2009
I Page 2                                                                                                          I



                                                                                                                  I

                                                                                                                  I

  Residential Child Caring Agencies invoiced the Children's Division for the full cost of providing Title IV ~
  E training. In accordance with the contract, the Children's Division determined the anticipated Title IV-E I
I federal reimbursement by applying a "penetration rate" of 70%, the FMAP rate (federal match rate) of          I

  75%, and the 10% administrative fee. The audit disclosed that when the Title IV -E claim was made             I

  using actual penetration rates necessary to properly allocate costs to the Title IV
                                                                                   IV-E
                                                                                      -E program, the state did I
  not remove the "estimated penetration rate" which resulted in a 30% understatement of costs actually                I



  provided by the RTC's. Attachment A includes an actual example reviewed during the audit period and a I
  corrected audit workpaper showing the actual training cost was $ 4,717,037 and the amount allocable as a l
  Title IV-E program claim was $3,265,614.

  I.      Costs Not Paid by the State Agency

  Title IV-E Training Reimbursement was over-stated by $42,847.

  The Draft Report asserts that Missouri clainled
                                         claimed $557,195 (federal share) in RTC costs that were
  unallowable because the State agency claimed Federal reimbursement based on an incorrect calculation of
  the amounts it paid to RTCs rather than on actual amounts as mandated by Federal requirements.

  The actual amount paid by the State agency under its contract with the R TCs is not in dispute. The audit
  documented $2,228,800 was paid to RTCs for the audit period. The audit also documented the State
  claimed $2,285,925 as Title IV-E training and was reimbursed $1,714,447 (75%). We agree with those
  conclusions and accept that as a "vendor".,
                                   "vendor", the allowable Title IV -E claim is limited to the actual payment
  made by the state, unlike a "subrecipient"
                              "subrecipienC' relationship in which allowable costs incurred by the
  subrecipient can be claimed and federal grant funds passed thru to the subrecipient.

  The draft audit erred when it applied a penetration rate and a 75% training reimbursement rate to the 

  $2,228,800 payment made to the RTC"s.
                                     RTC's. The actual penetration rate had already been applied inin

  determination of the Title IV
                             IV-E
                                -E claim. The state is entitled to 75% of the $2,228,800 payment made in
  accordance with its contract ($1,671,600). The necessary correction is only $42,847 ($1,671,600­
                                                                                         ($1,671,600­
  $1,714,447).

  Unallowable and Potentially Unallowable Costs at Leatherwoods

   The Draft Report indicates it reviewed $19,226 in claims from the Leatherwoods facility and determined
   $16,623 was unallowable because (a) $8,301 was not permitted for Federal reimbursement and (b) $4,167
  Iwas not supported by adequate documentation
                                   docllmentation pursuant to Federal regulations or the state contract.

  IWe
    We disagree that the Training activities allowed at 75% reimbursement under Section 474(a)(3) of the Act
  I exclude the costs identified in the audit, with one exception. We do agree that tIle
                                                                                      the entertainment expenses
   lappear
    appear to have been properly disallowed but we are unable to confirm the effect of the tIle disallowance in the
    training claim. The audit footnote 7 reveals the claim amounts referenced in the audit are not the actual
   Itraining
   ,amounts                    an10unts converted by OIG
    lamounts claimed but are amounts                   GIG based on the prior audit finding. As previously
   !noted,
    inoted, the state claim did not include the full $3,265,614 of RTC expenditures allocable to Title IV-E,
    Itherefore,
    fherefore, any un-reimbursable costs would have to be considered in context of the actual amount claimed.
  I
  Patrick J. Cogley 

  July 23, 2009 

  Page 3 



  II.    Responses to the Report's Recommendations

  The Draft Report recommends that Missouri "adjust its next ACF-IV-E-l report to reduce Federal
  reimbursement claimed for Title IV-E training by $569,693 (Federal share)." The State disagrees with
  this recommendation. The correct overpayment is $42,847.

  The Draft Report also recommends that Missouri "work with ACF to review the remaining claims at
  Leatherwoods   ...."" and "work with ACF to evaluate the RTC costs claimed by the State Agency for the
  Leatherwoods....
  remaining 37 RTCs that we did not review ... " The State has no objection to work with ACF regarding its
  review of policies in place, however, the State respectfully disagrees that ACF should reevaluate the RTC
  costs to the extent that they fall beyond the scope of the audit.

  Finally, the Draft Report recommends that Missouri "strengthen policies and procedures to ensure that it
  claims Federal reimbursement for Title IV-E training pursuant to Federal regulations and contractual
  provisions." Missouri disagrees with any suggestion that its policies and procedures are inconsistent with
  federal requirements. The requirement that Missouri strengthen its policies and procedures is also vague.
  It is unclear from the report which specific policies and procedures the Draft Report feels are insufficient
  and what specific changes are recommended to strengthen them. However, DSS is always willing to work
  with ACF to ensure compliance in all respects with the program.

  We look forward to working with your office to correct the errors reflected in the Draft Report. Please do
  not hesitate to contact Jennifer R. Tidball, (573) 751-7533
                                                     751-7533,, if you have any questions about the foregoing
  responses.

  Sincerely,


/ ·.Zv-L
    Zc,L V
         ,'L
          1 /
         0/"
{( Ronald J. Levy 	
   Director
                                                                                                         Attachment A



SUMMARY OF AMOUNT CLAIMED
                                          QUARTER ENDED           lSTQTR 2003       2ND QTR2003 3RD QTR 2003     4TH QTR 2003 1ST QTR 2004 2NDQTR2004 3RD QTR 2004 4TH QTR 2004 lSTQTR 2005 2NDQTR2005 3RD QTR2005
         F083 - AFTER GROSS UP FOR COST SHARE & ADMIN FEE                234,647.32     139,949.42  271,627.33       185,219.70   216,648.70  157,576.49  285,632.59   167,829.17   208,199.94  184,047.32  251,798.44
                                        PENETRATION RATE                  67.2520%       68.3760%    69.5200%         70.1580%     70.3160%    70.3050%    70.1610%     68.7480%     68.2170%    68.2900%    68.2840%
                                  AFTER PENETRATION RATE                157,805.01      95,691.82  188,835.32       129,946.44   152,338.70  110,784.15  200,402.68   115,379.20   142,027.75  125,685.91  171,938.05
                                                      FFP                      75%            75%         75%              75%          75%         75%         75%          75%          75%         75%         75%
                                         FEDERAL AMOUNT                 118,353.76      71,768.86  141,626.49        97,459.83   114,254.02   83,088.11  150,302.01    86,534.40   106,520.82   94,264.44  128,953.54

SUMMARY OF AMOUNT PAID BY DSS
                                     AMOUNT PAID BY DSS TO RTCs          158,386.94    94,465.86    183,348.45     125,023.30   146,237.87   106,364.13   192,802.00   113,284.69   140,534.96   124,231.94   169,963.95
                                             PENETRATION RATE              67.2520%     68.3760%      69.5200%      70.1580%     70.3160%      70.3050%    70.1610%      68.7480%    68.2170%     68.2900%     68.2840%
                                       AFTER PENETRATION RATE            106,518.38    64,591.98    127,463.84      87,713.85   102,828.62    74,779.30   135,271.81    77,880.96    95,868.73    84,837.99   116,058.18
                                                            FFP                75%           75%           75%           75%          75%           75%         75%           75%         75%          75%          75%
                                               FEDERAL AMOUNT             79,888.79    48,443.98     95,597.88      65,785.39    77,121.47    56,084.48   101,453.86    58,410.72    71,901.55    63,628.49    87,043.64
                                                                         335,210.46   199,927.75    388,039.05     264,599.58   309,498.14   225,109.27   408,046.56   239,755.96   297,428.49   262,924.74   359,712.06
QUESTIONED COSTS
  DIFFERENCE BETWEEN PAID & F083 DATA AFTER GROSS UP FOR
                                   COST SHARE & ADMIN FEE                76,260.38     45,483.56     88,278.88      60,196.40    70,410.83    51,212.36    92,830.59   54,544.48     67,664.98   59,815.38     81,834.49
                                        PENETRATION RATE                 67.2520%       68.3760%     69.5200%        70.1580%     70.3160%     70.3050%     70.1610%   68.7480%      68.2170%     68.2900%     68.2840%
                                  AFTER PENETRATION RATE                 51,286.63     31,099.84     61,371.48      42,232.59    49,510.08    36,004.85    65,130.87   37,498.24     46,159.02   40,847.92     55,879.87
                                                      FFP                      75%           75%          75%            75%          75%          75%           75%        75%           75%          75%          75%
                                         FEDERAL AMOUNT                  38,464.97     23,324.88     46,028.61      31,674.44    37,132.56    27,003.64    48,848.15   28,123.68     34,619.26    30,635.94    41,909.90




       Exception Support #5 with corrections.xls
                                                                                                         Attachment A



SUMMARY OF AMOUNT CLAIMED
                                          QUARTER ENDED
         F083 • AFTER GROSS UP FOR COST SHARE & ADMIN FEE                                                 264,521.81
                                        PENETRATION RATE                        69.5160%     69.6170%      69.8000%
                                  AFTER PENETRATION RATE                        66,461.95   159,030.49   184,636.22
                                                      FFP               75%          75%          75%          75%           75%
                                         FEDERAL AMOUNT            79,218.22    49,846.46   119,272.86   138,477.17    134,506.12

SUMMARY OF AMOUNT PAID BY DSS
                                     AMOUNT PAID BY DSS TO RTCs   103,539.69    64,534.52   154,194.49   178,552.22    173,335.11   2,228,800.12   ~;~~~~~
                                             PENETRATION RATE      68.8590%      69.5160%    69.6170%     69.8000%       69.8390%
                                       AFTER PENETRATION RATE      71,296.40    44,861.82   107,345.58   124,629.45    121,055.51   1,543,002.40
                                                            FFP         75%          75%          75%          75%           75%
                                               FEDERAL AMOUNT      53,472.30    33,646.36    80,509,18    93,472.09     90,791.63   1,157,251.80
                                                                  219,131.62   136,580.99   326,337,54   377,888.30    366,846.79   4,717,037.29
QUESTIONED COSTS
  DIFFERENCE BETWEEN PAID & F083 DATA AFTER GROSS UP FOR
                                  COST SHARE & ADMIN FEE          49,852.44    31,072.18    74,241.79    85,969.59     83,457.65    1,073,125.98
                                        PENETRATION RATE          68.8590%     69.5160%     69.6170%     69.8000%      69.8390%
                                 AFTER PENETRATION RATE           34,327.89    21,600.13    51,684.91    60,006.77     58,285.99     742,927.08
                                                     FFP                75%          75%          75%          75%          75%
                                         FEDERAL AMOUNT           25,745.92    16,200.10    38,763.68    45,005.08     43,714.49     557,195.31




       Exception Support #5 with corrections.xls
